         OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment



Audit Report




         EPA Oversight for the
         Alaska Village Safe Water
         Program Needs Improvement

         Report No. 2004-P-00029


         September 21, 2004
Report Contributors:                              Robert Adachi
                                                  Madeline Mullen
                                                  Jennifer Hutkoff
                                                  Janet Kasper




Cover Photo:           Courtesy of National Park Service
                       Tidewater Glacier in Glacier Bay, Alaska
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     W ASHINGT ON, D.C. 20460


                                                                                          OFFICE OF
                                                                                  IN S P E C T O R G E N E R A L




                                             September 21, 2004

MEMORANDUM

SUBJECT:       EPA Oversight for the Alaska Village Safe Water Program Needs Improvement
               Report No. 2004-P-00029

               /s/ Michael A. Rickey
FROM:          Michael A. Rickey
               Director of Assistance Agreement Audits

TO:            Ron Kreizenbeck
               Acting Regional Administrator
               EPA Region 10

This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
problems the OIG has identified and corrective actions the OIG recommends. We discussed our
findings with your staff and issued a draft report. We have summarized your comments in this
final report and included your complete response in Appendix B. This report represents the
opinion of the OIG and the findings do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

Your response to the draft report included corrective actions with an estimated completion date
of June 30, 2005. As a result, no response to this report is necessary. We ask that you provide us
with the status of your corrective actions and whether all were completed by June 30, 2005. We
have no objections to the further release of this report to the public. For your convenience, this
report will be available at http://www.epa.gov/oig.

We want to express our appreciation for the cooperation and support from your staff during this
audit. If you or your staff have any questions about this report, please contact me at (312) 886-
3037, or Robert Adachi, Assignment Manager, at (415) 947-4537.
                     Executive Summary
Purpose

           From March 1995 through July 2004, EPA awarded 15 grants representing
           $232 million to the Alaska Department of Environmental Conservation (State) for
           the Village Safe Water Program. The grants fund the construction of water and
           sewer systems in rural Alaska. On January 9, 2004, the Alaska State Legislature
           Division of Legislative Audit issued an audit report regarding selected projects of
           the Village Safe Water Program that raised a number of oversight issues and
           included recommendations for improvement. As a result, we conducted an audit
           to answer the question: Is EPA Region 10’s (Region) oversight of grants in
           support of the Alaska Village Safe Water Program sufficient to safeguard the
           funds and ensure effective results?

Results in Brief

           We found that the Region did not provide sufficient oversight over grants awarded
           to the State to safeguard the funds and ensure effective results. The Region’s
           oversight did not comply with the guidance established for earmark grants, even
           though the guidance was readily available. The lack of oversight was due to the
           Region’s perception that the earmark grants awarded for the program were pass-
           through funds and did not require the oversight and management required of other
           grants. In addition, EPA and Regional management assumed that oversight was
           being performed, even though there was no documentation to support the
           assumption.

           The Region did not have an overall plan for the implementation, conduct, and
           monitoring of the grants for the program. The Regional Strategic Plan did not
           specifically address the goals for the program outlined in the EPA National
           Strategic Plan. The Region did not develop goals, objectives, and measures for
           the grants awarded for the Village Safe Water Program, as required, despite
           $232 million being awarded to the State. The Region did not place the needed
           emphasis on the program after it evolved from a small pilot project to a large,
           continuing program.

           The Region’s lack of oversight impacted the efficiency and effectiveness of the
           grants. For example:

           •       The Region was unaware of deficiencies outlined in the Alaska Legislative
                   Auditor’s report.
           •       The State had an excessive cash balance of more than $13 million as of
                   June 30, 2002.


                                            i
         •      The Region could not determine whether environmental and health
                objectives were met.
         •      The Region was unable to determine whether grants met legislative
                objectives to improve health and sanitation conditions.
         •      The Region was unable to determine whether funds were appropriately
                allocated between (a) construction and (b) training, technical assistance,
                and educational programs relating to operation and maintenance in order
                to protect the Government’s investment.

Recommendations

         We recommend that the Region 10 Administrator improve Village Safe Water
         Program oversight through: (a) increased emphasis on grants management; and
         (b) establishment of goals, objectives, and outcomes to ensure that grants are
         meeting legislative objectives.

Region 10 Response and OIG Comment

         The Region agreed with the draft report recommendations and indicated the
         following corrective actions have been or will be taken:

         •   Corrective actions taken prior to the audit: These actions emphasized
             training for project officers, supervisors and grants specialists; post- award
             monitoring training; and a post-award monitoring policy established by EPA
             Headquarters.
         •   Corrective actions taken during the course of the audit: These actions
             included establishing objectives and time lines for the State’s fiscal year 2005
             grant workplan; updating the position descriptions and performance
             agreements of project officers and their supervisors; and notifying the State
             that it must change its cash drawdown policies to comply with U.S. Treasury
             requirements.
         •   Corrective actions to be implemented after the audit: These actions
             emphasized the inclusion of the Alaska Village Safe Water Program in the
             Region’s Strategic Plan, developing measures to determine the environmental
             and health benefits realized; a commitment to manage the grants in accordance
             with established policy; and ensuring that proper resources are allocated to
             management and oversight of grants awarded to the State.

         The Region set a deadline of June 30, 2005, for the completion of all corrective
         actions. We recognize the Region’s responsiveness to the audit findings and
         recommendations and its willingness to improve its oversight of the Alaska
         Village Safe Water Program. The full text of the Region’s response is in
         Appendix B.



                                          ii
                                       Table of Contents

Executive Sum mary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          i



 Chapters
          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
                         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
                         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
                         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2

          2         Improvement in Grant Oversight Needed                               ..........................                         3

                         Monitoring Procedures Did Not Follow Guidance . . . . . . . . . . . . . . . . . . . .                             3
                         Re gion’s Pe rception of Earm ark Grants . . . . . . . . . . . . . . . . . . . . . . . . . . .                    4
                         Assumption that Oversight W as Being Performed . . . . . . . . . . . . . . . . . . .                              5
                         Effects of Lack of Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            6
                         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8
                         Recom mendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            9
                         Region 10 Response and OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . .                            9

          3         Goals, Objectives, and Measures Not Developed . . . . . . . . . . . . . . . . . . 11

                          Goals, Objectives, and Measures of Success Needed . . . . . . . . . . . . . . . .                                11
                          Lack of Regional Involvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               12
                          Grants May Not Meet Legislative Objectives . . . . . . . . . . . . . . . . . . . . . . . .                       12
                          Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   14
                          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          14
                          Region 10 Response and OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . .                             15


 Schedule
          1         Schedule of Gra nts Aw arded to
                    Alaska Department of Environmental Conservation
                    Alaska Village Safe Water Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


 Appendices
          A         Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
          B         Region 10's Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
          C         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                                Chapter 1
                                 Introduction
Purpose
          On January 9, 2004, the Alaska State Legislature Division of Legislative Audit
          (Legislative Auditor) issued an audit report regarding the Alaska Department of
          Environmental Conservation (State). The report addressed the State’s spending
          practices used for the Alaska Village Safe Water Program. The audit
          recommended the Village Safe Water Program be transferred to Alaska’s
          Department of Transportation and Public Facilities, and raised the following
          issues:

          •   Lack of State oversight;
          •   Inadequate monitoring by State engineers;
          •   Lack of oversight of onsite managers;
          •   Questionable purchasing; and
          •   Questionable projects in recent subdivisions.

          These issues raised concerns regarding the Environmental Protection Agency
          (EPA) Region 10’s (Region) oversight of grants awarded to the State. As a result,
          we conducted an audit to answer the question: Is EPA Region 10’s oversight of
          grants in support of the Alaska Village Safe Water Program sufficient to
          safeguard the funds and ensure effective results?

Background
          Congress authorized the U.S. Public Health Service to construct water and
          sanitation systems in Alaska Native communities beginning in 1959. Between
          1960 and 2001, more than $1.1 billion in Federal and State funds was spent on
          water and sewage systems in Native villages. Federal funds were provided by the
          Indian Health Service, the Department of Agriculture, the Department of Housing
          and Urban Development, and EPA.

          In 1994, the U.S. Congress Office of Technology Assessment published a report
          regarding sanitation challenges in Alaskan Native villages. About one-fourth of
          Alaska’s 86,000 Native residents lived without running water and used plastic
          buckets – euphemistically called “honey buckets” – for toilets. As a result of this
          inadequate sanitation, certain diseases (e.g., hepatitis A and impetigo) continued
          to be of concern in rural Alaska.




                                           1
         In 1996, Congress passed Public Law 104-182, amending Section 303 of the Safe
         Drinking Water Act. Under the amendments, EPA may make grants to Alaska for
         the benefit of rural and Native villages to pay the Federal share of the cost of:

         •   The development and construction of public water systems and wastewater
             systems to improve the health and sanitation conditions in the villages; and
         •   Training, technical assistance, and educational programs relating to the
             operation and management of sanitation services in rural and Native villages.

         The grants to the State of Alaska have been funded through earmarks authorized
         by EPA’s annual appropriation. An earmark is a portion of an appropriation that
         is to be spent on a particular project.
         From March 1995 through July 2004, the Region awarded 15 grants, totaling
         $232 million, to Alaska to fund the Village Safe Water Program. Schedule 1 of
         this report provides details. Nine grants totaling $225 million (97 percent of all
         grant funding) have gone toward infrastructure in the form of construction
         projects. The six remaining grants totaling $7 million (3 percent) have gone
         toward Remote Maintenance Worker/Rural Utility Business Advisor projects,
         which provide funding for training, technical assistance, and educational programs
         related to the construction and operation and maintenance of sanitation
         infrastructure.

         The State of Alaska recognized the need for adequate water and sewer systems
         through the passage of the Village Safe Water Act in 1970. The purpose was to
         “establish a program designed to provide safe water and hygienic disposal
         facilities in the state.” The Village Safe Water Program provides grants to
         unincorporated villages with populations of 25 to 600. The program has offices in
         both Juneau (administrative) and Anchorage (18 engineering personnel). The
         engineers directly assist communities. The program is funded from three primary
         sources: grants from EPA, grants from the U.S. Department of Agriculture, and
         State of Alaska capital project funds. For the State fiscal year ending June 30,
         2004, the Village Safe Water Program had a budget of $81 million, of which EPA
         provided $32 million.

Scope and Methodology
         The audit was conducted in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. The audit field work was
         performed between March 10 and May 17, 2004. Our audit was primarily
         conducted at EPA Region 10 in Seattle, Washington, and EPA Alaska Operations
         Offices in Anchorage and Juneau, Alaska. We visited the Legislative Auditor’s
         offices in Juneau and Anchorage to obtain background information on audits
         performed, as well as the Legislative Auditor’s role in the Single Audit Act audit
         of the State of Alaska. See Appendix A for details on scope and methodology.


                                          2
                                 Chapter 2
        Improvement in Grant Oversight Needed
         The Region must improve its oversight of the grants awarded for the Village Safe
         Water Program. The Region’s monitoring procedures did not comply with EPA
         requirements for pre-award and post-award reviews. Although oversight guidance
         for earmark grants was readily available, it was not applied to Village Safe Water
         Program grants. These conditions resulted from the Region’s perception that
         earmarks did not require as much oversight as regular grants. In addition, EPA
         and Regional management assumed that oversight was being performed even
         though there was no documentation to support the assumption. The Region’s lack
         of oversight impacted the efficiency and effectiveness of the grants and resulted in
         administrative problems, excess cash balances, and the continuation of existing
         human health issues.

Monitoring Procedures Did Not Follow Guidance
         The Region’s monitoring procedures did not comply with EPA requirements for
         pre-award and post-award reviews. Pre-award procedures did not ensure that
         grant applications contained required elements. Due to insufficient detail in the
         grant applications, the value of any post-award monitoring was questionable. The
         Region’s oversight of the grants was not evident. The State’s status reports did
         not provide sufficient detail for the Region to oversee the grants.

          Pre-award procedures did not ensure that grant applications contained all required
          elements. As stated in Office of Water guidance, Award of Grants and
          Cooperative Agreements for the Special Projects and Programs Authorized by the
          Agency’s FY 2004 Appropriations Act, EPA has a responsibility to ensure that all
          grant applications contain:

          •   a scope of work that is clearly defined;
          •   a scope of work that is in conformance with the project description;
          •   a clearly-stated environmental or public health objective;
          •   a reasonable chance that the project will achieve its objective(s); and
          •   costs that are reasonable, necessary and allocable to the project.

          These responsibilities have been included in the guidance for annual
          appropriations since 1994.

          The Region’s pre-award reviews were administrative checklists noting
          information contained in the application. For example, for the grant awarded in
          June 2003, the checklist showed that the Scope of Work was adequate. However,
          the grant application only showed a listing of villages and total dollar amounts,

                                            3
          without any details such as milestones, cost breakdowns, or scheduled completion
          dates. In addition, none of the grant applications:

          •   stated environmental or public health objectives for the various projects to be
              funded;
          •   assessed whether there was a reasonable chance that each of the projects
              funded would achieve its objective(s); and
          •   assessed whether costs were reasonable.

          Prior to the award, neither the Program nor Grants offices in the Region ensured
          that the grant award addressed these issues. Neither office required the State to
          provide any information beyond what was in the application. Therefore, the
          elements generally found in a grant workplan, such as milestone dates and
          outcomes, were not included in the grant award.
          Due to the insufficient detail in the grant applications and award documents, the
          value of any post-award monitoring was questionable. Five of 15 grant files had
          some evidence of post-award monitoring, such as determining whether a Single
          Audit Act report was done, identifying drawdowns, or ensuring that Financial
          Status Reports were submitted. The remaining 10 grant files had no evidence of
          post-award monitoring. The official Project Officer files did not contain
          evaluations or reviews of grantee progress reports or the grant as a whole. Since
          the grant applications did not contain required elements, post-award monitoring
          could not address whether the:

          •   environmental or public health objectives were being addressed;
          •   project objectives were being achieved; and
          •   costs were reasonable.

          Information the State provided was not sufficient for the Region to oversee the
          grants. For some grants, the State provided spreadsheets denoting the phases of
          construction and the percentages of EPA money that had been spent. These
          reports did not track environmental outcomes or provide sufficient detail on grant
          progress to show that the grants would reasonably achieve their objectives.
          Although all grant awards required the submission of annual, year-end reports on
          administrative costs, such reports were not submitted to the Region for the past
          3 years. Regional Office of Water management was not aware that the State had
          not provided the annual administrative reports.

Region’s Perception of Earmark Grants
          The Region believed that earmarks were not subject to pre-award review and post-
          award monitoring. For the Village Safe Water Program, the Region believed that
          the grants were earmarks, EPA’s goal was to provide funds for the State, and the
          grant policies did not apply to these grants. The Region believed that earmarks


                                            4
                  did not include personnel or other resources for oversight of these grants. The
                  Region’s approach to grants management differed based on whether grants were
                  considered program or earmark grants. The Region believed that programmatic
                  grant oversight was more rigorous than earmark grant oversight. Earmarks were
                  perceived as pass-through funds although EPA guidance for Congressional
                  earmarks, Grants Policy Issuance GPI-03-01, Attachment I, Guidance for
                  Congressional Earmarks (Line Items), clearly states:

                          Awards made as a result of earmarks are subject to the applicable
                          assistance regulations, OMB (Office of Management and Budget) cost
                          principles and Agency policies. They must be managed as any other
                          assistance agreement.
                  The Region’s perception that earmarks were not subject to the same monitoring as
                  other grants is not unique. In 1996, the OIG reported that EPA’s award and
                  oversight of earmark assistance at six universities differed significantly from
                  similar competitively awarded grants.1 The report found that EPA accepted
                  unclear applications with unclear scopes of work without requiring additional
                  details from the recipients. EPA also had not assigned sufficient resources to
                  properly oversee the grants.

Assumption that Oversight Was Being Performed

                  EPA and Regional management assumed that project officers and grant specialists
                  were performing oversight even though there was no documentation to support the
                  assumption. There had been no documentation (e.g., telephone calls, e-mails and
                  on-site visits) in the grant management or project officer files since 1999 of any
                  milestones, progress evaluations, or followup on the grant status, despite EPA
                  grant guidance, Managing Your Financial Assistance Agreements, Project Officer
                  Responsibilities, Fifth Edition, which states:

                          Assistance agreement files should be documented to ensure that the
                          Agency documents the obligations and responsibilities of all parties
                          before, during, and after the grant, and so that a third party can easily
                          follow the sequence of events regarding the project.

                  Regional Program and Grants Management did not effectively communicate their
                  expectations for management and oversight of the grants. One of the Project
                  Officers did not believe that monitoring was required or that management would
                  support him in addressing issues he identified. In essence, the Region depended
                  on the State to monitor and report on its own program.


       1
           Capping Report on Audits of Congressionally Earmarked Assistance to Selected Universities, September
30, 1996, Report No. E1FBE4-04-0261-6100313 .

                                                       5
          EPA and Regional Office of Water managers were unaware of the extent of
          monitoring that was performed. Regional management and headquarters staff
          assumed that the Region’s grants and program staff were performing monitoring
          functions. Grant and program staff each believed that the other staff was
          performing monitoring every year. For example, grants staff believed that the
          program office was performing on-site monitoring each year. Program office
          relied on the Grants office for oversight, including reviews of the State’s
          procurement system, and monitoring of grants. As a result, there was limited
          oversight and monitoring of the grants.

Effects of Lack of Oversight

          The Region’s lack of oversight impacted the efficiency and effectiveness of the
          grants. For example:

          •   The Region was unaware of deficiencies outlined in the Alaska Legislative
              Auditor’s report.
          •   Drawdowns were not in compliance with U.S. Treasury regulations regarding
              Federal funds.
          •   The Region could not determine whether environmental and health objectives
              were met.

          Alaska Legislative Auditor Findings

          The lack of oversight resulted in the Region being unaware of deficiencies in the
          State administration of the program as reported by the Legislative Auditor. The
          Legislative Auditor report, dated January 9, 2004, questioned the State’s spending
          practices and oversight of construction of water and sewer systems through the
          Village Safe Water Program. The report described administrative problems with
          procurement and timekeeping processes and provided the following findings:

          •   In a review of 24 contracts, the Legislative Auditor found that the contracts
              awarded by the State may not comply with Federal requirements.
          •   The Legislative Auditor questioned the compensation paid to three on-site
              managers as excessive and wasteful.
          •   The Legislative Auditor questioned whether a project was funded for
              improvements in a subdivision and not for the treatment of environmental
              problems or health hazards.
          •   The Legislative Auditor questioned the costs paid for vehicles, various
              supplies, and hand tools and items stolen from job sites.

          As a result of the findings, the Legislative Auditor recommended that the Village
          Safe Water Program be transferred from the Alaska Department of Environmental
          Conservation to the Department of Transportation and Public Facilities. The
          Legislative Auditor believed that the Village Safe Water Program would benefit

                                            6
from the Department of Transportation and Public Facilities’ support services,
economies of scale, training opportunities, career paths, and business discipline.
The Legislative Auditor also recommended cost controls over the State’s on-site
managers and incorporation of normal business safeguards. A copy of the
Legislative Auditor report is at:
http://www.legaudit.state.ak.us/pages/digests/2004/30028dig.htm.

Some of the problems found by the Legislative Auditor were known to the State
due to two independent studies in 2001 and 2002, which had been commissioned
by the State but never publicly released. The first study found that:

•   Program engineers were not routinely reconciling contract engineers’ invoices
    and paid-to-date amounts with the contracted amount to be paid.
•   The equipment purchase policy was not consistently applied among the project
    engineers. Some did not obtain prior approval before purchasing equipment
    costing more than $5,000 and others did obtain prior approval.
•   The Village Safe Water Program procedures manual seemed to contradict the
    EPA and U.S. Department of Agriculture Rural Development grant
    agreements regarding equipment purchases and prior approvals.

The second study found, in some instances, no evidence of invoice approval by
project engineers. In a few instances, the subcontracted engineers were approving
their own invoices. In almost all instances, the amounts reported as expenditures
to the program exceeded the actual amounts expended on the projects.

The Fiscal Year 2002 Alaska Legislative Auditor’s Single Audit Act report
pointed out that the State was unable to ensure that it was providing the necessary
oversight of EPA and U.S. Department of Agriculture funds passed through to
organizations responsible for the financial management of grant funds. The
Single Audit Act report recommended that the State contact both Federal granting
agencies (EPA and U.S. Department of Agriculture) to obtain monitoring policy
guidance. As of the date of this report, the Region has not responded to the Single
Audit Act report recommendation. The Region has stated that the
recommendation will be addressed in connection with this report’s findings.

Compliance with U.S. Treasury Regulations

As of June 30, 2002, the State had a cash balance of $13,168,777. Under Title 31,
Code of Federal Regulations, Sections 205.7 (c)(4) and (d), grantees are limited to
cash drawdowns to meet their immediate cash needs. Immediate cash needs are
defined as the amount that will be needed for the next 3 days of expenditures.
The State has historically drawn funds to meet its cash needs for the construction
season, which runs from April to October of each year. The excess cash balance
continues for the fiscal year ending June 30, 2003, and is being reviewed by the
Legislative Auditor. Adequate monitoring should have resulted in recognition and

                                 7
         resolution of improper drawdown procedures and the excess cash balance. On
         July 14, 2004, the Region notified the State that funds must not be drawn down in
         advance of actual immediate cash needs. The Region also rescinded its prior
         approval of drawing cash for the construction season.

         Projects May Not Address Environmental or Health Objectives

         Due to the lack of oversight, there was insufficient assurance that health
         objectives were being met. Grant applications are required to contain clearly
         stated environmental or public health objectives along with the reasonable
         expectation of meeting the objectives.

         The Legislative Auditor found a project that had been constructed but may not
         have addressed health issues identified in the justification for receiving funds
         from the program. On September 3, 1999, the Village Safe Water Program
         awarded a grant to the Voznesenka Homeowners Association committing
         $1,133,333 in Federal funds and $566,667 in State funds for development of a
         new water source; installation of a water treatment plant, water mains, and water
         service to buildings; and training for water managers and operators. The initial
         justification for the project stated:

                The current water supply is not adequate for the community. The present
                system poses a serious health risk to the villagers who drink untreated
                water from a small creek which is neither filtered nor disinfected... If
                people don't boil their water they get sick.

         After spending $1.7 million, safe water was still not available. As of February
         2004:

         •   None of the homes were getting water from any of the seven drilled wells;
         •   Some homes piped untreated water from streams; and
         •   There was untreated water in the drinking water tank.

         Instead, the facility was used to store water to fight fires. It was the intent of the
         Village Safe Water Program to provide additional funds to finance a feasibility
         study for extending the water line in addition to exploring existing and alternative
         water sources.

Conclusion

         The Region must improve its oversight of the grants awarded to the State for the
         Village Safe Water Program. The Region needs to understand that the
         management of the State grants is a partnership between the Program and Grants
         Management Offices. Both offices need to comply with EPA guidance and ensure
         that all grant applications and awards contain necessary elements. Both offices

                                           8
         must also perform required monitoring. Regional management must
         communicate expectations for management and oversight to all staff. The Region
         must devote the resources necessary to promote effective grants management.

Recommendations

         We recommend that the Regional Administrator, EPA Region 10:

             2-1   Manage the grants awarded for the Village Safe Water Program in
                   accordance with EPA regulations and guidance.

             2-2   Hold managers and staff accountable for managing the grants in
                   accordance with EPA regulations and guidance.

Region 10 Response and OIG Comment

         The Region agreed with the findings and recommendations and indicated the
         following corrective actions have been or will be taken in three phases:

         Phase 1. Prior to the audit, the Region:

         •     Conducted certification training for Project Officers and Supervisors to
               understand the roles and responsibilities involved in the management of
               grants.
         •     Updated post-award monitoring training and offered it quarterly to Project
               Officers.
         •     Provided professional development training courses to Grants Specialists.
         •     Adopted baseline and advanced monitoring programs consistent with the post-
               award monitoring policy developed by Headquarters.

         Phase 2. During the course of the audit, the Region:

         •     Began updating the position descriptions and performance agreements of
               Project Officers and the Unit Manager.
         •     Notified the State that it would be allowed to draw only enough cash to cover
               its immediate cash needs consistent with U.S. Treasury regulations.

         Phase 3. After the audit, the Region will:

         •     Produce a memorandum of understanding with the State to improve oversight
               and monitoring of environmental outcomes.
         •     Commit the Region to manage the grants in accordance with the highest
               fiduciary standards.
         •     Review grants pursuant to post-award monitoring policy during 2005.


                                            9
•   Ensure that proper resources are allocated to management and oversight of
    grants awarded for the Village Safe Water Program.

The OIG recognizes the Region’s commitment to managing Village Safe Water
Program grants in accordance with all relevant grant regulations and guidance.




                                10
                                Chapter 3
              Goals, Objectives, and Measures
                       Not Developed
         The Region did not develop goals, objectives, and measures for the grants
         awarded for the Village Safe Water Program despite $232 million being awarded
         to the State. The Regional Strategic Plan did not specifically address goals for the
         program even though they were outlined in EPA's National Strategic Plan. The
         Region did not place the needed emphasis on the program after it evolved from a
         small pilot project to a large, continuing program. The Region thought earmarks
         were pass-through funds with the goal of providing money to the State. As a
         result, the Region was unable to determine whether grants met legislative
         objectives to improve health and sanitation conditions and to provide training,
         technical assistance, and educational programs. The Region was also unable to
         determine whether funds were appropriately allocated to protect the Government’s
         investment.

Goals, Objectives, and Measures of Success Needed

          EPA guidance requires that all grants:

          •   Contain goals, objectives, and measures to ensure grant success; and
          •   Contribute to the EPA mission objectives of protecting human health and the
              environment.

          Although EPA guidance requires the development of goals, objectives, and
          measures for all assistance agreements, there was no documentation or evidence
          that the Region followed the guidance. The grant files also did not contain
          specific information regarding programmatic goals and lacked an examination of
          whether grant activities would achieve environmental outcomes and be reasonably
          successful. For example, infrastructure grant applications contained a priority list
          giving project names such as Klawock - utility service extension, but did not
          discuss how completed projects would accomplish EPA and State of Alaska
          objectives for clean and safe water and protecting human health. During a June 3,
          2004, status meeting, the Region acknowledged that improvements were needed.

          The Region also needs to improve its strategic planning process to include the
          Village Safe Water Program. The Region did not specifically address the goals
          outlined in the EPA National Strategic Plan in its most recent Regional Strategic
          Plan. EPA 2003 - 2008 National Strategic Plan Section 2.1.1 addressed the
          national goal for providing safe drinking water to Alaska Native villages as:



                                           11
                 In a related effort, EPA will work with other federal agencies to develop a
                 coordinated approach to improving access to safe drinking water.... EPA
                 will contribute to this work through its support for development of
                 drinking-water facilities in Indian country and Alaskan Native villages,
                 using set-aside funds from the DWSRF [Drinking Water State Revolving
                 Fund] and targeted grants.

          While EPA’s Strategic Plan addressed Alaska Native villages, the Region’s
          Strategic Plan made no mention of it. With one quarter of village residents not
          served by safe drinking water, the significance of the issue should have been
          acknowledged within the Region’s Strategic Plan. The Region’s Strategic Plan
          addressed how the State Revolving Loan Fund would be used for water issues. In
          contrast, the Region’s Strategic Plan did not include the Village Safe Water
          Program, which is funded through the largest annual grant the Region awarded
          during each of the last 3 years.

Lack of Regional Involvement

          The Region began involvement in the Village Safe Water Program by
          administering a small wastewater construction pilot project in Huslia, Alaska. In
          1996, the Village Safe Water Program received annual grant funds as a result of
          an amendment to the Safe Drinking Water Act. The Region did not adapt policies
          and procedures to administer the grants as a continuing program although over
          $232 million in grant funds was provided over the last 10 years. The Region
          believed that the grants were pass-through funds with the goal of providing money
          to the State and were not subject to guidance or policies. As the funding increased
          from $15 to $42 million annually, the Region continued to rely upon the State to
          perform all program functions (technical and administrative); to evaluate the
          grants and the program; and to inform the Region if there were any problems. As
          a result, the Region allowed the State to administer the program without EPA
          input or involvement.

Grants May Not Meet Legislative Objectives

          The lack of goals and measures prevented the Region from determining whether
          the grants met the objectives of the Safe Drinking Water Act. As a result, the
          Region cannot quantify the benefits of improved health and sanitation resulting
          from the projects. In addition, the Region does not have assurance that funds are
          appropriately allocated between (a) infrastructure; and (b) training, technical
          assistance, and educational programs relating to the operation and maintenance of
          sanitation services.




                                          12
The objectives of the grants as identified in the Safe Drinking Water Act are:

•   The development and construction of public water systems and wastewater
    systems to improve health and sanitation conditions in villages; and
•   Training, technical assistance, and educational programs relating to the
    operation and management of sanitation services in rural and Native villages.

Development and Construction of Systems

Since its inception, the Village Safe Water Program has constructed and placed in
operation water and wastewater facilities in rural Alaskan villages. However,
there have never been programmatic measures to confirm the success of these
efforts. There has been no evaluation of whether:

•   facilities are being used for their intended purpose;
•   facilities have been abandoned or are not used; and
•   assumed public health benefits have been realized.

The following instances highlight the need for measures of success and a
determination of whether benefits have been realized:

•   In the village of Chefornak, nine wells were drilled in 1994 and 1995 and a
    pilot “flush tank and haul system” was installed in 2002. Although the Village
    Safe Water Program has supplied over $8.3 million in funding since 1992,
    only 6 of 68 homes are being served because an acceptable water source has
    not been located.

•   In the village of Hooper Bay, a water treatment plant and water storage tank
    were constructed, but the project was put on hold due to the community’s
    failure to demonstrate sustainability. Although the Village Safe Water
    Program has supplied over $14.9 million in funding since 1992, none of the
    185 homes in Hooper Bay are being served.

Operation and Maintenance of Sanitation Services

Without objectives and measures, the Region is unable to evaluate the proper
allocation of funding between (a) infrastructure; and (b) training, technical
assistance, and educational programs relating to the operation and maintenance of
existing facilities. Infrastructure projects have received $225 million (97 percent)
of all grant funds awarded. The issue of infrastructure versus operation and
maintenance was addressed during the State of Alaska Rural Sanitation Summit
on April 23 and 24, 2002. The purpose of the Summit was for community and
agency representatives from throughout Alaska to discuss the current state of
water and wastewater conditions in rural Alaska. The Summit concluded:


                                 13
                   The current policy of focusing almost all of the funding available for
                   water and wastewater projects on construction of new systems results in
                   shortfalls for funding for training, technical assistance, community
                   planning, upgrades and repairs to existing systems, and operations and
                   maintenance. Specific issues related to funding include the following:
                   Inadequate funding available for upgrade, repair and expansion of old
                   systems on the verge of collapse....

         The Region acknowledged that underfunding training, technical assistance, and
         educational programs relating to operation and maintenance could lead to
         shortened infrastructure life span. However, the majority of grant funding
         continues to be allocated to new construction projects rather than supporting
         existing facilities. Without success measures, the Region is unable to evaluate the
         proper allocation of funding between infrastructure and maintenance of existing
         facilities.

Conclusion

         The Region did not develop goals, objectives, and measures for the grants
         awarded to the State for the Village Safe Water Program. The Region is unable to
         determine whether the grants have met the objectives of the Safe Drinking Water
         Act. As a result, the Region cannot quantify the benefits to improved health and
         sanitation. In addition, the Region is not assured that funds are appropriately
         allocated between (a) infrastructure; and (b) training, technical assistance, and
         educational programs relating to operation and maintenance.

Recommendations

         We recommend that the Regional Administrator, EPA Region 10:

             3-1   Include goals, objectives, and outcomes within all grants to comply with
                   EPA policies for planning, analysis, and accountability.

             3-2   Revise the Region 10 Strategic Plan to reflect how the Village Safe Water
                   Program grants will contribute towards achieving clean and safe water.

             3-3   Develop measures to gauge whether the grants are meeting legislative
                   objectives.




                                           14
Region 10 Response and OIG Comment

         The Region agreed with the findings and recommendations and indicated the
         following corrective actions have been or will be taken in two phases:

         Phase 1. During the course of the audit, the Region:

         •   Worked with the State of Alaska to improve the grant award process to
             include objectives and timelines in the workplan for the State’s Fiscal Year
             2005 grant.

         Phase 2. After the audit, the Region will:

         •   Conduct a review to ensure that the State’s fiscal year 2005 grant is meeting
             legislative objectives.
         •   Include the Village Safe Water Program in the Region’s strategic plan.
         •   Develop measures in conjunction with Office of Management and Budget
             Program Assessment of the Village Safe Water Program.
         •   Produce a memorandum of understanding with the State to improve oversight
             and monitoring of environmental outcomes.
         •   Ensure that progress on both drinking water and wastewater issues, as well as
             environmental and health benefits, can be identified and tracked.

         The OIG recognizes the Region’s commitment to developing goals, objectives,
         and measures for the Village Safe Water Program grants.




                                          15
16
                                                                                   Schedule 1

          Schedule of Grants Awarded to
 Alaska Department of Environmental Conservation
        Alaska Village Safe Water Program

              Original                                  Total                          Grant
 Grant        Award              Period of             Project        Grant        Payments as
Num ber        Date             Performance             Cost         Amount        of 06/04/2004
                                         Infrastru cture
970094-01    06/15/2001    07/01/2001-06/30/2006      $44,200,800   $33,150,600     $25,435,744
970306-01    08/14/2002    07/01/2002-06/30/2007      $50,668,300    $38,000,000    $18,408,717
970569-01    06/18/2003    07/01/2003-06/30/2008      $54,331,990    $40,747,900     $6,870,826

980241-01    07/15/1998    07/15/1998-06/30/2004      $27,921,000    $13,960,500    $13,429,768

980444-01    06/17/1999    07/01/1999-06/30/2004      $42,352,050    $28,229,700    $25,108,176

980875-01    06/23/2000    07/01/2000-06/30/2005      $37,132,500    $27,849,400    $22,567,198

990383-01    03/15/1995    03/15/1995-09/30/2004      $16,363,635    $15,000,000    $14,455,303

990564-01    03/15/1996    03/15/1996-12/31/2004      $27,272,727    $15,000,000    $14,739,601

990852-01    06/23/1997    07/01/1997-06/30/2004      $26,084,200    $13,042,100    $12,701,099

  Subto tal of Infrastructure G rants                $326,327,202   $224,980,200   $153,716,432

            Remote Maintenance Worker/Rural Utility Business Advisor (RMW/RUBA)
990875-01    07/25/1997    07/31/1997-06/30/2003       $2,564,800     $1,282,400     $1,282,400

970156-01    07/25/2001    07/01/2001-06/30/2004       $1,347,893     $1,010,920     $1,010,920

970330-01    08/20/2002    07/01/2002-06/30/2004       $1,211,000     $1,815,800     $1,205,276

970534-01    06/03/2003    07/01/2003-06/30/2005       $1,416,930     $1,062,700       $396,888

970155-01    07/26/2001    07/01/2001-07/30/2003       $1,211,000      $907,900        $907,900

970318-01    08/07/2002    07/01/2002-06/30/2004       $1,456,100     $1,092,100     $1,038,521

  Subto tal of RM W /RUB A Grants                      $9,207,723     $7,171,820     $5,841,905



GRAND TOTALS                                         $335,534,925   $232,152,020   $159,558,337




                                               17
18
                                                                                      Appendix A

                  Details on Scope and Methodology
The audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. These standards require that we obtain an understanding
of the program to be audited. The understanding of the program was obtained through analysis of
the laws, regulations, and guidance pertaining to grants awarded to the State for the Village Safe
Water Program and an evaluation of internal controls over the grants. Internal controls include the
processes for planning, organizing, directing, and controlling program operations. Internal controls
also include the systems for measuring, reporting, and monitoring program performance. Our
understanding of the internal controls was gained through the performance of the procedures
outlined below. The audit field work was performed from March 10 to May 17, 2004.

Our audit included site visits to EPA Region 10 in Seattle, Washington, and the EPA Alaska
Operations Offices in Anchorage and Juneau, Alaska, to perform the following steps:

•   Interview Region 10 managers, including the Deputy Regional Administrator; Office of Water
    Director and Deputy Director; Office of Management Programs Deputy Director; and Grants
    Management Officer;
•   Interview Region 10 Water Division and Grants Management staff;
•   Interview Alaska Operations Office staff;
•   Interview former Region 10 Water Division and Grants Management staff involved in grants
    awarded to the State for the Village Safe Water Program;
•   Review the official grant files; and
•   Review project officers’ files.

We interviewed staff from the EPA Headquarters Office of Water in Washington, DC, to
determine their role in State grants and the Village Safe Water Program.

We visited the Alaska State Legislature Division of Legislative Audit offices in Juneau and
Anchorage to obtain background information concerning audits performed on the State as well as
their role in the Single Audit Act audit of the State of Alaska. We interviewed Legislative Audit
staff and reviewed their working papers in support of their reports.

Instances of noncompliance with laws, regulations, and guidance, and deficiencies in the Region’s
internal control system, have been identified and included in the findings in Chapters 2 and 3 of
this report. Recommendations have been made to correct the deficiencies.

There have been no previous audits performed of Region 10's oversight of the Village Safe Water
Program.

We issued the draft report to the Regional Administrator on July 21, 2004. The Acting Regional
Administrator responded on September 1, 2004. An exit conference was held on September 17,


                                                19
2004. In its response, the Region agreed with the recommendations and indicated that corrective
actions have been or will be taken. Synopses of the Region’s response follow the Executive
Summary and Chapters 2 and 3 of this report. The Region’s complete response is included in
Appendix B.




                                               20
                                                                                        Appendix B
                              Region 10's Response




Reply To
Attn Of:       OW-136

MEMORANDUM

SUBJECT:       Region 10's Response to the Office of Inspector General’s Draft Audit Report
               Number 2003-001486, EPA Oversight for the Alaska Village Safe Water Program
               Needs Improvement

FROM:          Ronald A. Kreizenbeck /s/
               Acting Regional Administrator

TO:            Michael A. Rickey, Director
               Assistance Agreement Audits

        We thank the Office of Inspector General (OIG) for the time and effort it has devoted to
identifying issues and recommendations associated with the Agency’s oversight and management of
the Alaskan Village Safe Water Program. We particularly appreciate the initiative your staff has
demonstrated in communicating with our office throughout the audit process. Our most recent
meeting with them on August 31, 2004, was very helpful in clarifying for both parties the context
and intent of several important issues raised in the draft report and assisting us in formulating this
response.

Response to Report Recommendations

        The draft report provides a number of recommendations toward enhancing the effectiveness
of Agency oversight of the Alaska Village Safe Water Program. On balance, we agree with these
recommendations and would ask that the report acknowledge the Region’s progressive program of
activities, policy development and implementation, and other decisions aimed at divulging and
addressing issues in the grants management arena during three phases: prior to this audit, following
the onset of the audit, and after the audit.

       Prior to this audit, the Region undertook a series of initiatives designed to systematically
ensure that both EPA Project Officers and Grants Specialists were better equipped to
manage/oversee the grants that were awarded from the Region.



                                                  21
       •       The Grants Administration Unit conducted the enhanced three-day Project Officer
               certification training in Region 10 in February 2004, and a complementary training
               for supervisors of Project Officers so that everyone would gain a better
               understanding of the roles and responsibilities of all individuals involved in the
               management of grants.
       •       Post-Award monitoring training was updated this year and offered to Project Officers
               each quarter.
       •       The Grants Specialists were provided professional development training courses
               leading to a Grants Management Certificate (thru MCI). In addition, HQ
               administered the Grants Specialist Basic Core Knowledge Course here in the Region.
       •       HQ established a Post Award Monitoring Policy which establishes baseline and
               advance monitoring of grants. Region 10 then developed its own policy which is
               being implemented.

        After the onset of this audit and in response to its preliminary findings, the Region undertook
the following actions to ensure that this grant program will be adequately managed and that its
intended environmental results will be achieved. For all actions detailed here and in the next section
that have not already been concluded, please note our commitment for their completion not later
than June 30, 2005.

       •       The Office of Water and Watersheds (OWW) and Grants Administration Unit
               (GAU), have worked with the State of Alaska to improve the grant award process
               this year. The workplan for the Village Safe Water Program grant issued for
               FY2005, now includes objectives and time lines.
       •       OWW is in the process of updating the position descriptions and performance
               agreements of its Project Officers and Unit Manager to reflect the performance
               standards as defined in relevant regulations and guidance.
       •       The Deviation, previously granted to the State of Alaska, which allowed the State to
               draw sufficient cash to cover the entire construction season, was rescinded and the
               State was notified that it only is allowed to draw enough cash to cover its immediate
               cash needs, consistent with Department of Treasury requirements.

        Finally, we anticipate implementing the following measures in the near- and longer-term to
ensure that funds are safeguarded and that the program is effectively managed and yields desired
outcomes:

       •       OWW will conduct a review to assure that the FY2005 grant is meeting the
               legislative objective.
       •       OWW will include the Village Safe Water Program in the Region’s strategic plan.
       •       Measures will be developed in conjunction with the OMB Program Assessment
               Rating Tool of the Village Safe Water Program.
       •       An MOU produced under the grant to improve the State and EPA oversight and
               monitoring of environmental outcomes for the program.
       •       Region 10 and EPA’s long-term Grants Management Plan commits the Agency to
               managing these grants in accordance with the highest fiduciary standards. Region

                                                  22
               10 will review this grant pursuant to the Post Award Monitoring Policy and the
               Project Officer Manual in 2005.
       •       OWW intends to establish better linkages between the Drinking Water Compliance
               Program and the Alaska Village Safe Water Program to ensure that progress on both
               drinking water and wastewater issues as well as environmental and health benefits
               can easily be identified and tracked, and appropriate action taken if problems become
               apparent.

       •       The Region will work with EPA Headquarters and the State of Alaska to ensure that
               proper resources are allocated to the management and oversight of this grant.

        As evidenced by these activities, the Region is committed to fulfilling the environmental
objectives of the Alaska Village Safe Water Program and is responsive to the primary audit
findings.

Other Observations & Recommendations

        The draft report highlights the need to establish performance measures and environmental
outcomes associated with the Alaska Village Safe Water Program grant. As we discussed with your
staff, we recommend that the report better reflect the complementary nature of functions that
compose the wider Drinking Water Program. Specifically, we believe that the degree to which the
objectives of the drinking water component of the Village Safe Water Program are being fulfilled is
tracked by our ongoing Drinking Water Compliance Program. Your staff has also suggested that the
measures and outcomes related to the municipal wastewater dimension of the Alaska Village Safe
Water Program should receive greater treatment. We agree. We are committed to develop more
explicit strategic and operational linkages between the drinking water and wastewater components
of the Alaska Village Safe Water Programs with complementary functions performed within the
broader Drinking Water Program.

        We think the report would be greatly improved by the inclusion of additional context
regarding the evolution of the Alaska Village Safe Water Program. Specifically, more perspective
on the grant’s earmark status, and how that perceived status shaped management’s expectations for
oversight over time, would be very helpful. Notwithstanding our recommendation that the report be
augmented with this additional context, Regional management’s expectations for oversight of this
grant program (including its commitment to develop systems to ensure fulfillment of those
expectations) are now at a level commensurate with all relevant grant regulations and guidance.

         While we take no special issue with the first two enumerated ‘results’ reflected in the
report’s statement on page 3 - “The Region’s lack of oversight...resulted in administrative problems,
excess cash balances, and potential human health issues.,” the reference to health issues was not
previously discussed in our joint discussions of preliminary audit findings. We believe that this
reference is speculative and should be revised or struck from the report.

        As we discussed with your staff on at least two occasions, the Region has not taken a
position on either the 2004 Legislative Auditor’s report or the Department of Environmental

                                                 23
Conservation’s response to that report. While we believe both raise potentially significant issues
and may have contributed to prompting this audit, we also believe that it is currently premature for
both the Region and this report to render conclusions on what we see as unreconciled issues.
Therefore, we would recommend that discussion of the Auditor’s report be simplified, cast in the
context of a stimulus to the OIG’s audit.

        We have also discussed with your staff our concerns with the appearance of anecdotal
references to specific grants in the report. A balanced and complete reckoning of the report’s three
anecdotal references (pages 8 and 13) and their broader representativeness is lacking. We believe
that their appearance is counterproductive and otherwise detracts from what is our basic agreement
with the main thrust of the report’s findings and recommendations. We recommend they be struck
from the report.

        Finally, the report suggests that the distribution of grant funding is faulty, disproportionately
favoring new construction projects at the expense of O&M. We know you understand that while the
grant program as currently authorized provides for such activities as training and technical
assistance that may contribute to better system O&M, it disallows grant funding to be used for
implementing an actual O&M program. We understand from our most recent meeting with your
staff that the report will be revised to clarify this distinction for readers.

       We appreciate the opportunity to respond to this draft report. Should you have any questions
concerning our comments and action items, you may contact Marie Jennings at 206-553-1893 or
Armina Nolan at 206-553-0530.




                                                   24
                                                                                 Appendix C

                                    Distribution


EPA Headquarters

      Assistant Administrator for Water (4101M)
      Agency Followup Official (the CFO) (2710A)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Associate Administrator for Public Affairs (1101A)
      Director, Office of Regional Operations (1108A)
      Director, Office of Grants and Debarment (3901R)
      Director, Grants Administration Division (3903R)


EPA Region 10

      Deputy Regional Administrator
      Director, Office of Water Quality
      Director, Office of Management Programs
      Director, Office of Communication, Education and Change
      Director, Alaska Operations Office
      Audit Followup Coordinator


Office of Inspector General

      Inspector General


United States Department of Agriculture

      Inspector General




                                             25
